GR-80-98-015
U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
GRANTS TO THE STONE PARK, ILLINOIS POLICE DEPARTMENT
Award Numbers 95-CF-WX-4127 and 96-CM-WX-0410 
Audit Report Number GR-80-98-015
August 17, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Stone Park, Illinois Police Department (SPPD). The SPPD
received grants of $658,098 to hire or rehire six full-time sworn police officers and
eight part-time police officers under the Funding Accelerated for Smaller Towns (FAST) and
Universal Hiring Programs (UHP). The SPPD also received $100,234 under the Making Officer
Redeployment Effective (MORE) program to redeploy four sworn police officer full- time
equivalents (FTEs). The purpose of the additional officers is to enhance community
policing efforts.
In brief, our audit determined the SPPD:

 Charged to the grants unallowable and unsupported costs of $96,411, of which
  $55,766 were reimbursed with federal funds.


 Overstated the total budgeted project costs for the FAST and UHP awards by
  $13,500 and $34,680 respectively.
 Generally was not in compliance with grant reporting requirements. 
 Had no written plan to retain the grant funded positions after the grants
  expire. 

#####